No.
PHILLIP DWAYNE Loyp,
Petitioner,
v.
UNITED STATES OF AMERICA

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Nico Ratkowski, as the preparer of
the document, certify that the PETITION FOR WRIT OF CERTIORARI in the
above entitled case complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in Century Schoolbook 12 point for the text and 10 point for
the footnotes, and this brief contains 6,176 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me on this 19th day of March, 2021.
Iam duly authorized under the laws of the State of Minnesota to administer oaths.

  
    

  

SAMUEL LAKE PARKER
NOTARY PUBLIC
MINNESOTA
Commision Expless Jan. 31,

Seal A a Ve (22

Affiant

  

 
